Pension Benefit Guaranty Corporation

     Office of Inspector General
            Audit Report




         Fiscal Year 1998
    Financial Statement Audit -
       Management Report




          September 23, 1999
                                   99-8/23132-3
                Audit of PBGC’s Fiscal Year 1998 Financial Statements
                                 Management Letter
                                    99-8/23132-3


                               TABLE OF CONTENTS




Abbreviations                                                             ii

Executive Summary                                                         iii

Management Response and OIG Evaluation                                    iv

Introduction                                                              1

Audit Objectives                                                          1

Scope and Methodology                                                     2

Audit Results                                                             2

Findings and Recommendations                                              3

Current Year Findings and Recommendations                                 6

Status of Prior Year Findings and Recommendations                         19



                                        TAB


Management Response Memorandum                                          TAB I




                                         -i-
        Audit of PBGC’s Fiscal Year 1998 Financial Statements
                         Management Letter
                            99-8/23132-3




                        ABBREVIATIONS



AICPA   American Institute of Certified Public Accountants
EIA     Earned Income Accrual
ERISA   Employee Retirement Income Security Act of 1974
FAM     Financial Audit Manual
FBA     Field Benefit Administrator
FMFIA   Federal Managers’ Financial Integrity Act of 1982
FOD     Financial Operations Department
FY      Fiscal Year
GAAP    Generally Accepted Accounting Principles
GAO     General Accounting Office
IDL     Initial Determination Letter
IOD     Insurance Operations Department
IPS     Image Processing System
IPVFB   Integrated Present Value of Future Benefits
IRMD    Information Resources Management Department
LAN     Local Area Network
OED     Office of the Executive Director
OIG     Office of Inspector General
OMB     Office of Management and Budget
PAIB    Premium Audit and Investigation Branch
PAS     Premium Accounting System
PLUS    Pension and Lump Sum System
PBGC    Pension Benefit Guaranty Corporation
PCR     Premium Compliance Reviews
PDFN    Past Due Filing Notices
PRISM   Participant Records Information Systems Management
PVFB    Present Value of Future Benefits
SOA     Statements of Account
SSA     Social Security Administration
SSB     State Street Bank and Trust Company




                                -ii-
                  Audit of PBGC’s Fiscal Year 1998 Financial Statements
                                   Management Letter
                                      99-8/23132-3

                                    EXECUTIVE SUMMARY

       PricewaterhouseCoopers LLP (PricewaterhouseCoopers) was engaged by the Office of
Inspector General (OIG) of the Pension Benefit Guaranty Corporation (PBGC or the
Corporation) to conduct an audit of the financial statements of the Single-Employer and
Multiemployer Program Funds administered by PBGC, as of and for the years ended September
30, 1998 and 1997. As presented in OIG Audit Report 99-7/23132-2, PricewaterhouseCoopers
issued an unqualified opinion on the statements of financial condition and the related
statements of operations and changes in net position and statements of cash flows. The report
on PBGC’s compliance with laws and regulations stated that the results of our tests disclosed
no instances of non-compliance that are required to be reported under Government Auditing
Standards, or the methodology set forth by the United States General Accounting Office’s
(GAO) Financial Audit Manual (FAM).

        However, we noted certain matters involving internal control and its operation that we
consider to be reportable conditions under standards established by the American Institute of
Certified Public Accountants (AICPA). None of the reportable conditions was believed by us to
be material weaknesses as defined by the AICPA. The reportable conditions we noted were:
PBGC needs to integrate its financial management systems and improve its systems
development life cycle methodology; PBGC needs to finalize and test its plan for maintaining
continuity of operations; and PBGC needs to implement and improve controls surrounding the
Participant Records Information Systems Management (PRISM) application. The detailed
findings and recommendations related to the PRISM reportable condition are presented in
Section 3 of this report.

        This management report discusses findings and recommendations for improvements in
the Corporation’s internal control that were identified during our audit of the fiscal year 1998
financial statements. It contains 17 findings, which resulted in 24 recommendations that,
although not considered material weaknesses, are serious enough to bring to management’s
attention. PBGC should implement the recommendations to strengthen its internal control. A
majority of the findings are reported in three categories: lack of adequate controls over financial
reporting, lack of compliance with PBGC’s policies and procedures, and lack of adequate
controls surrounding the PRISM application. In addition, in the section entitled “Prior-Year
Findings and Recommendations," we have summarized the status of prior year audit
recommendations included in OIG Audit Report Numbers 97-4/23110-2 and 97-23/23110-3, as
of September 30, 1998. Recommendations that were deemed “completed” in prior years have
not been carried forward.




                                                -iii-
MANAGEMENT RESPONSE AND OIG EVALUATION

      PBGC management was provided a draft copy of this report for review and comment.
We met with PBGC officials several times to discuss the impact of the report’s findings and
recommendations and provide greater detail from our fieldwork. After these discussions, the
OIG removed from the draft report one finding related to eliminated or corrected premium
Statements of Account. The OIG has incorporated several editorial changes suggested by
PBGC management.

        PBGC management commented on the Report and concurred “with its
recommendations except for one item.” Their comments are at Tab I. PBGC disagreed with the
second recommendation of Finding 2.1 which states that PBGC should “modify existing
Insurance Operations Department (IOD) procedures to require retention of source
documentation generated as a result of the participant data audits and used to calculate
benefit payments and value the PVFB liability.”

        In their response, PBGC stated that current IOD procedures indeed “require that source
documentation is to be maintained to support participant data audits, the calculation of benefit
payments, and the valuation of the Present Value of Future Benefits (PVFB) liability.” However,
the IOD Manual Section 12.5, “Perform Source Documentation Audit,” clearly instructs IOD
personnel to retain source documentation obtained from prior sponsors of terminated plans
only for a sample of participants. This documentation consists of several sample files for each
category of participants and is used to analyze the data gathered in the field. IOD’s collection
and retention of only a sample of participant data may not be adequate in the future to provide
a proper audit trail to support benefit calculations and the PVFB liability. Proper audit trails
have been historically material to PBGC’s financial statements as a whole. In addition,
throughout the IOD Manual a completeness of the participants’ files is emphasized and
encouraged. Complete documentation is the cornerstone for providing a proper audit trail to
support data elements used to calculate benefits, and in turn, the PVFB liability. Failure to
capture full and complete participant data could ultimately affect the overall financial
statement opinions, including internal controls, in the future.

       In addition, PBGC stated that this recommendation is “pending further discussions
between OIG and IOD.” While we are available to discuss the changes we believe are needed to
IOD’s Manual, whether the Manual must be modified is not in question. Even though PBGC
has disagreed with a report recommendation, some modification to IOD’s Manual will be
necessary to resolve noted inconsistencies in IOD’s Manual and to repair a damaged audit trail
that currently is capturing incomplete participant data.




                                               -iv-
                 Audit of PBGC’s Fiscal Year 1998 Financial Statements
                                 Management Letter
                                    99-8/23132-3
Introduction

       As a government corporation created by Title IV of the Employee Retirement Income
Security Act of 1974 (ERISA), the Pension Benefit Guaranty Corporation (PBGC or the
Corporation) protects the pensions of more than 42 million Americans in approximately
44,000 private defined benefit pension plans, including about 2,000 multiemployer plans.
PBGC’s mission is to operate as a service-oriented, professionally managed agency that
protects participants’ benefits and supports a healthy retirement plan system by: (1)
encouraging the continuation and maintenance of private pension plans; (2) protecting
pension benefits in ongoing plans; (3) providing timely payments of benefits in the case of
terminated pension plans; and (4) making the maximum use of resources and maintaining
premiums and operating costs at the lowest levels consistent with statutory responsibilities.
PBGC finances its operations through premiums collected from covered plans, assets
assumed from terminated plans, collection of employer liability payments due under ERISA,
as amended, and investment income. In addition, PBGC may borrow up to $100 million from
the United States Department of the Treasury to finance its operations. To date, this
borrowing authority has not been exercised.

Audit Objectives

The objectives of our audit were to determine whether:

•   The financial statements present fairly, in all material respects, the financial position of
    the Single-Employer and Multiemployer Program Funds administered by PBGC as of
    September 30, 1998, and September 30, 1997, and the results of their operations and
    cash flows for the years then ended, in conformity with generally accepted accounting
    principles (GAAP).

•   Management’s assertion that PBGC’s controls in effect as of September 30, 1998, provided
    reasonable assurance that assets were safeguarded from material loss and transactions
    were executed in accordance with management’s authority and with significant
    provisions of selected laws and regulations, and furthermore, that PBGC controls provide
    reasonable assurance that transactions were properly recorded, processed, and
    summarized to permit the preparation of the financial statements in accordance with
    generally accepted accounting principles and to maintain accountability for assets among
    funds is fairly stated, in all material respects, based upon criteria contained in the Federal
    Managers’ Financial Integrity Act of 1982 (FMFIA). This assertion is included in the
    Management’s Discussion and Analysis of Financial Condition and Results of Operations
    section of PBGC’s Fiscal Year (FY) 1998 Annual Report to the Congress.

•   PBGC is in compliance with significant provisions of applicable laws and regulations.


                                                1
Scope and Methodology

       PricewaterhouseCoopers LLP (PricewaterhouseCoopers) was engaged by the Office of
Inspector General (OIG) of PBGC to conduct an audit of the financial statements of the
Single-Employer and Multiemployer Program Funds administered by PBGC as of and for the
years ended September 30, 1998, and September 30, 1997.

        Our audit was performed in accordance with standards established by the American
Institute of Certified Public Accountants (AICPA), Government Auditing Standards, and
pursuant to the methodology set forth by the United States General Accounting Office’s
(GAO) Financial Audit Manual (FAM). Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement.

        An audit of financial statements conducted in accordance with generally accepted
auditing standards, Government Auditing Standards issued by the Comptroller General of the
United States, and the methodology set forth by GAO’s FAM is not designed to detect
whether PBGC’s systems are Year 2000 ready. Furthermore, we have no responsibility with
regard to PBGC’s efforts to make its systems, or any other systems, such as those of PBGC’s
vendors, service providers, or any other third parties, Year 2000 ready and no responsibility
to provide assurance on whether PBGC has addressed or will be able to address all of the
affected systems on a timely basis. These are the responsibilities of PBGC’s management.

       We performed tests of the accounting records and such other auditing procedures, as
we considered necessary in the circumstances. This involved performing tests at PBGC, the
State Street Bank (SSB), two investment manager sites, and two Field Benefit Administrator
(FBA) sites. We did not perform tests related to standard terminations or other areas not
having a direct and material effect on the financial statements.

Audit Results

       As a result of our FY 1998 audit, we issued the following reports:

       (a) an unqualified opinion on PBGC’s statements of financial condition, and the
           related statements of operations and changes in net position and statements of
           cash flows, as of and for the years ended September 30, 1998, and September 30,
           1997 (OIG report number 99-7/23132-2);

       (b) a report on PBGC’s compliance with laws and regulations that noted no instances
           of non-compliance with the provisions tested; and

       (c) a report on internal control that identified three reportable conditions, one of
           which is recurring. These reportable conditions were not deemed to be material
           weaknesses as defined by standards established by AICPA.


                                              2
        Our FY 1998 report on internal control disclosed the reportable condition related to
the lack of integration of the Corporation’s financial management systems, including the
need for an adequate systems development life cycle methodology and the need for adequate
systems development monitoring and oversight. This reportable condition was also reported
in FYs 1997 and 1996. During FY 1998, PBGC made some progress in addressing the issue.
However, additional work is required to ensure that PBGC’s financial management systems
are integrated, the formal systems development life cycle methodology is implemented, and
specific criteria allowing the Corporation to effectively monitor systems outsourcing are
identified and followed.

       Two new reportable conditions identified in our FY 1998 report on internal control
were: PBGC needs to finalize and test its plan for maintaining continuity of operations and
PBGC needs to implement and improve controls surrounding the Participant Records
Information Systems Management (PRISM) application.

        In addition to the reportable conditions specified above, during our FY 1998 audit, we
identified a number of internal control weaknesses that, although not considered material
weaknesses or reportable conditions, we believe warrant the attention of management. This
management report summarizes our findings and recommendations for improvement in the
Corporation’s internal control.

Findings and Recommendations

        This report contains 17 findings from our FY 1998 testing which resulted in 24
recommendations that PBGC should implement to strengthen the Corporation’s internal
control. Additionally, in the section entitled "Prior-Year Findings and Recommendations," we
have summarized the status of prior-year audit recommendations included in OIG Audit
Report Numbers 97-4/23110-2 and 97-23/23110-3, as of September 30, 1998.

       The remainder of this report is comprised of the following:

•   A table listing our current year recommendations (Pages 4-5) .
•   A discussion of each current year finding and corresponding recommendation(s)
    (Pages 6-19).
•   A table listing each of the outstanding prior year findings and their status as of
    September 30, 1998 (Pages 19-21).




                                               3
                           Summary of Current Year Recommendations

                                    Recommendation                                             Page
                                                                                               Number
1. Enhance financial reporting controls surrounding PAS to improve the system’s ability to        7
accurately track premiums receivable on a plan basis. (FOD-274)
2. Analyze the existing year-end processes surrounding PAS and identify improvements that        7
will reduce the necessity of manual adjustments, validity testing, and reclassifications at
year-end. (FOD-275)
3. Enforce existing IOD policies and procedures requiring that participants’ files contain       8
complete information critical for the benefit payments and the PVFB liability calculation.
(IOD-169)
4. Modify existing IOD procedures to require retention of source documentation generated as      8
a result of the participant data audits and used to calculate benefit payments and value the
PVFB liability. (Disagreed-1)
5. Develop, implement, and enforce consistent procedures for reinstating participants into       9
pay status. (IOD-170)
6. Enforce policies and procedures related to the maintenance of plan file documentation at      9
the FBAs and headquarters. (IOD-171)
7. Require all premium compliance reviews to be performed, documented, and approved in           10
accordance with PBGC’s Premium Compliance Review Procedures Manual. (FOD-276)
8. Develop and implement formal procedures for closing premium compliance reviews in             10
progress prior to completion. (FOD-277)
9. Develop and implement accounting procedures for recording the results of PCR into PAS at      11
the point the debt is determined. (FOD-227)
10. PBGC needs to enhance the change control process used in maintaining and supporting          12
its application systems and include it as part of the overall System Development Life Cycle
currently being developed. (IRMD-108)
11. PBGC needs to develop and formalize criteria for assessing business and information          12
technology risks that can be used internally and for contractors performing independent
reviews. (IRMD-109)
12. Enforce policies and procedures that require participants’ records in PRISM contain          13
information that is adequately supported in IPS. (IOD-172)
13. Enforce existing policies and procedures related to the information that should be           14
captured by FBAs in the participants’ records in PRISM. (IOD-173)
14. Maintain an adequate audit trail of decisions affecting the integrity of participants’       14
data. (IOD-174)
15. Delete invalid duplicate participant records in PRISM and implement necessary controls       14
to prevent the creation of duplicate records in future processing. (IOD-175)


                                               4
                           Summary of Current Year Recommendations

                                    Recommendation                                              Page
                                                                                                Number
16. Apply transactions to participants’ records in PRISM properly and timely. (IOD-176)           15

17. Properly authorize special check payments in accordance with authorization thresholds         15
established by PBGC. (IOD-177)
18. Develop and implement formal reconciliation procedures that require the reconciling items     16
between PRISM and PLUS records be resolved timely and their resolution be sufficiently
documented. (IOD-178)
19. Require formal managerial review and approval of reconciliations between PLUS and             16
PRISM. (IOD-179)
20. Implement the deathmatch controls. (IOD-180)                                                  16

21. Establish a formal reconciliation process for the plans assumed from the prior paying         17
agents whereby reconciliations are reviewed and approved by an appropriate level of
management. (IOD-181)
22. PBGC should include in its development of a formal systems development life cycle             18
methodology policies and procedures that address adequate controls for the segregation of
functions performed in the development and production environments. (IRMD-110)
23. PBGC should include in its development of a formal systems development life cycle             18
methodology policies and procedures that implement and enforce adequate monitoring
controls for significant activities performed by individuals and/or systems. (IRMD-111)
24. PBGC should implement policies and procedures that would control the assignment of            19
excessive responsibilities, including the development of adequate monitoring of activities
performed by individuals and/or systems. (IOD-182)




                                               5
Current Year Findings and Recommendations

1.     CONTROLS OVER FINANCIAL REPORTING
       REQUIRED STRENGTHENING.

        Financial statement reliability is dependent on maintaining adequate and
functioning accounting controls. An internal control is a set of policies and procedures
established and maintained by management in order to meet its internal control objectives.
The objectives of internal control generally include but are not limited to (a) adherence to
management’s policies and procedures, (b) the safeguarding of assets, and (c) the accuracy
and completeness of the accounting records. Adequate internal control can reduce the risk
that financial statements contain material misstatements. During our FY 1998 testing, we
identified several control weakness issues related to financial reporting that require PBGC
management’s attention.

1.1    Premium receivable balance was generated
       by the Premium Accounting System (PAS)
       using incorrect data.

       PBGC uses information contained on Statements of Account (SOAs), Past Due Filing
Notices (PDFNs) and Earned Income Accrual (EIA) balances to generate its year-end premiums
receivable balance. During our FY 1998 testing, we found instances when SOAs and EIAs
balances were misstated due to incorrect plan data.

        When a plan underpays or submits an incomplete or a late filing form, PAS generates
a SOA. This statement has a direct financial statement impact, as it represents a premium
receivable. Additionally, EIA, an accrual for income earned but not yet due, makes up a
portion of the Corporation’s receivable balance. Our FY 1998 testing identified instances
when PAS generated SOAs for plans that did not owe money to PBGC. Furthermore, we
identified instances when PBGC accrued earned income using incorrect plan data
maintained on PAS. Accordingly, the individual plan receivable balances generated as a
result were inaccurate.

         If a plan does not submit a timely premium filing form, PAS generates a PDFN that
should be mailed to the plan sponsor as a reminder that the payment is due. A PDFN also
allows PAS to track all plans that have not filed on time and represents an important control
over completeness of premiums receivable. During our FY 1998 testing, we noted that PDFNs
were generated on a test basis for plans that did not file in FY 1997 and were not mailed to
late filers. As a result, PBGC used another method to ensure the completeness of premiums
receivable. If the Corporation cannot accurately and completely account for receivables on a
plan basis, the amounts reported in the financial statements may be potentially misstated.




                                              6
                                          Recommendation

We recommend the following corrective action:

       Enhance financial reporting controls surrounding PAS to improve the system’s ability
       to accurately track premiums receivable on a plan basis. (FOD-274)

1.2    PBGC performed numerous manual
       reclassifications and adjustments to the
       year-end premium balances generated by
       PAS.

       PAS premium related accounts reflect all activity dating back to the inception of PAS
in 1994. PAS accounts are not reset at fiscal year-end. To arrive at final balances, PBGC is
required to perform numerous manual adjustments, validity testing, and reclassifications
between single employer and multiemployer funds. This current methodology is a complex
and inefficient process that will continue to become more burdensome with the passage of
time. Such processes increase the possibility that misstatements could arise at both the
subsidiary system and financial statement level and not be detected.

                                          Recommendation

We recommend the following corrective action:

       Analyze the existing year-end processes surrounding PAS and identify improvements
       that will reduce the necessity of manual adjustments, validity testing, and
       reclassifications at year-end. (FOD-275)

2.     COMPLIANCE WITH PBGC’S POLICIES AND
       PROCEDURES NEEDED STRENGTHENING.

        An entity develops and implements policies and procedures to help provide order,
ensure consistency in processing among personnel, and provide guidance to new or
reassigned personnel. Management also develops policies to help ensure compliance with
applicable laws and regulations, to guide personnel in the implementation of internal
controls, and to help prevent fraud, waste, or abuse from occurring and not being detected
timely. If policies and procedures are not followed, inconsistent or ineffective processing of
accounting transactions may occur, resulting in possible errors or irregularities. We
identified the following instances of non-compliance with PBGC’s policies and procedures:




                                               7
2.1    Core documentation was not maintained in
       the participants’ files in the Image
       Processing System (IPS).

          During our FY 1998 audit, we identified instances where participants’ files in IPS did
not contain core documentation as required by the Insurance Operations Department (IOD)
Manual. The core documentation for participants in pay status and deferred vested
participants includes the Trusteeship Notification Letter, General Information Sheet, Proof of
Age, and Proof of Marital Status. We identified that several files of the participants in pay
status were missing core documentation and the Initial Determination Letters (IDL). Our
testing also revealed that even fewer documents were maintained in the deferred vested
participants’ files. In addition to the lack of core documentation, we noted instances of non-
compliance with policies and procedures related to issuance of the trusteeship notification
letter (i.e., 4042 letter). We also noted that several files for deferred vested participants were
missing in IPS.

        The IOD Manual does not require retention of all source documentation obtained at
the participant data audits. As of FY 1996, auditors responsible for participant data audits
were instructed not to retain source documents that were obtained from prior sponsors of
terminated plans. These documents were used to build the participant database and
calculate benefit payments. According to the IOD Manual, only source documents for a
sample of participants in each plan are retained. This practice results in conflicts between
the IOD Manual provisions that require completeness of the participants’ files and, at the
same time, does not require maintaining source documentation already obtained from the
prior plan sponsors. It may also create inefficiencies in the data gathering process when the
same participant information might be requested for the second time.

        Absence of the appropriate source documentation in the participants’ files and delays
in creating participants’ files in IPS could jeopardize the integrity of the calculation of the
benefit payments and Present Value of Future Benefits (PVFB) liability amounts. It also
causes a disruption of a clear audit trail, making it difficult to undertake an independent
confirmation of the validity of participant data.

                                      Recommendation

We recommend the following corrective actions:

       Enforce existing IOD policies and procedures requiring that participants’ files contain
       complete information critical for the benefit payments and the PVFB liability
       calculation. (IOD-169)

       Modify existing IOD procedures to require retention of source documentation generated
       as a result of the participant data audits and used to calculate benefit payments and
       value the PVFB liability. (Disagreed-1)


                                                8
2.2    Inconsistencies existed among the FBAs in
       reinstating participants into pay status.

        Our FY 1998 testing of internal control at FBAs indicated that inconsistencies existed
in reinstating participants taken out of pay status due to death notifications. One FBA
required that participants submit a notarized statement to verify that participants were alive
while another FBA reinstated participants after a telephone verification. This condition
occurred due to the lack of specific policies and procedures related to verifying participants’
information prior to reinstating them into pay status. Lack of such procedures may lead to
the situation when not enough evidence is obtained to mitigate the risk of fraud that benefit
payments are paid to unauthorized individuals.

                                     Recommendation

We recommend the following corrective action:

       Develop, implement, and enforce consistent procedures for reinstating participants into
       pay status. (IOD-170)

2.3    Compliance with policies and procedures
       related to the plan documentation
       maintenance should be strengthened at
       PBGC.

       IOD’s policies and procedures set forth certain maintenance requirements for
preserving plan documents and other related information at FBAs and the headquarters.
Our FY 1998 testing identified across-the-board non-compliance with many of these policies
and procedures. Though we found that plan files of the recently terminated plans were
better maintained, improvements in enforcing these policies and procedures are still critical.
Without enforcement and compliance, there is a risk that PBGC would not be able to
substantiate certain valuations or decisions related to plan termination and administration.

                                     Recommendation

We recommend the following corrective action:

       Enforce policies and procedures related to the maintenance of plan file documentation
       at the FBAs and headquarters. (IOD-171)




                                              9
2.4      Premium Compliance Review (PCR)
         procedures were not followed consistently.

        Independent review and approval are an integral part of any effective internal control.
Our FY 1998 testing identified several instances where PBGC failed to approve or complete
certain procedures related to PCR, mainly performed by PBGC’s contractors. Specifically,
PBGC’s Premium Audit and Investigation Branch (PAIB), which is in charge of performing
PCRs, failed to:

•     approve several completed reviews;
•     complete the required portions of the audit program, including PCR Checklist;
•     approve deviations from the standard audit program;
•     formally document reasons for review termination prior to completion;
•     identify an improper waiver by a contractor of amounts due to PBGC; and
•     identify inconsistent applications of documentation policies on behalf of contractors.

      Lack of proper review or approval of PCR results increases the possibility that errors
may go undetected and lead to misstatements in the financial statements.

                                       Recommendation

We recommend the following corrective actions:

         Require all premium compliance reviews to be performed, documented, and approved in
         accordance with PBGC’s Premium Compliance Review Procedures Manual. (FOD-276)

         Develop and implement formal procedures for closing premium compliance reviews in
         progress prior to completion. (FOD-277)

2.5      Amounts due to PBGC were not posted to PAS
         timely.

        PCR work may result in an accrual of premiums receivable, followed by settlements
and collections. Our FY 1997 testing identified the lack of a documentation link between
PCR findings and PAS. In FY 1998 testing, we found that a link was created; however, the
dollar amounts identified as due to PBGC were not posted to PAS timely. If the receivable
amounts are not posted to PAS timely, there is a risk that the collection of these amounts is
not properly tracked thus reducing the effectiveness of PCR and causing misstatements in
PBGC’s financial statements. This condition and the resulting recommendation have been
previously identified by the OIG’s report, Inspection of PBGC’s Premium Compliance Program
(97-6/23102-3), issued August 7, 1997.



                                                10
                                       Recommendation

As identified in the OIG report, the following corrective action is recommended:

         Develop and implement accounting procedures for recording the results of PCR into PAS
         at the point the debt is determined. (FOD-227)

2.6      PBGC’s information technology control policies
         and procedures have not been updated to reflect
         the recent migration to a client-server
         environment.

        The policies and procedures contained in the draft Information Resources
Management Department (IRMD) Change Management document that formalizes the process
used by PBGC to report, record, and approve changes to systems and application software
need to be expanded to include the change management process related to the client-server
environment. In conjunction with the Systems Development Life Cycle methodology,
change management within the development and maintenance environment is a significant
control. As PBGC’s information technology environment has undergone transition from the
mainframe to the client-server environment, the Change Management policies have not been
modified to reflect this migration. As defined in the Office of Management and Budget (OMB)
Circular A-127, management is responsible for defining a system development methodology,
including a controlled approach to maintain and support these systems during
implementation and operational status. The enhancements to the change control process
should include:

•     change management process for modifications to security and database settings in the
      client-server environment;
•     security requirements during the change control process;
•     impact analysis including assessment of changes and identification of affected data
      elements; procedure to be followed to control the transfer of configuration elements
      between development, test, and production environments; and
•     source code version control.

        PBGC contracts with third-party vendors or contractors for ongoing assessments of
its business applications for certification and accreditation purposes, thereby assisting
management with compliance to the FMFIA requirements. However, PBGC has not
established the criteria for assessing business and information technology risks to be used by
these contractors as benchmarks for their work. Such criteria should include:

•     identification of sensitive or critical resources in conjunction with information owners,
      business, and technical staff;
•     quantification of risks and standardization of risk categories;
•     selection of cost-effective information controls;
                                                11
•     performance of risk assessments; and
•     risk acknowledgment where management determines it is impractical, inefficient, or not
      cost-effective to implement a recommended control.

                                      Recommendation

We recommend the following corrective actions:

         PBGC needs to enhance the change control process used in maintaining and supporting
         its application systems and include it as part of the overall System Development Life
         Cycle currently being developed. (IRMD-108)

         PBGC needs to develop and formalize criteria for assessing business and information
         technology risks that can be used internally and for contractors performing
         independent reviews. (IRMD-109)

3.       CONTROLS OVER THE PRISM APPLICATION
         WERE NOT ADEQUATE.

        PBGC’s long-term ability to provide timely benefit payments to participants of
terminated pension plans and to prepare reliable financial statements is significantly
dependent on its effectiveness in managing accurate and complete participant records. Prior
to FY 1998, PBGC’s custodian bank, SSB, maintained and managed participant data for
PBGC. During FY 1998, PBGC implemented PRISM, a new in-house database and
information management system, and assumed control over participant information.
Participant records were converted from the pay-based SSB database, Pension and Lump
Sum System (PLUS), to the customer-based PRISM database (Genesis). While PBGC has
designed and placed in operation many important monitoring and information technology
controls over the PRISM database and applications, our FY 1998 audit identified areas where
these controls could be strengthened to reduce risks associated with the benefit payment
process and participant record integrity.

       Below, Section 3 discusses findings and recommendations for improvements in
controls surrounding the PRISM application that constituted the basis for the third
reportable condition included in our FY 1998 Independent Accountants’ Report on Internal
Control (99-7/23132-2).

3.1     Data Integrity and Processing

       Audit procedures performed on participant records maintained in PRISM (Genesis)
identified the following participant data integrity and processing issues:




                                               12
3.1.1 Participant records did not always agree to
      or were missing proper source
      documentation in IPS.

        During our FY 1998 testing of the data generated from the PRISM database, we noted
numerous instances where data maintained in PRISM did not agree to or was not supported
by information in IPS. Specifically, the following instances were noted:

•   IPS did not always contain documentation to support the participant’s deceased status;
•   The bank account numbers in PRISM were not always in agreement with or were not
    supported in IPS;
•   The benefit cutback amounts in PRISM did not always match the benefit cutback
    amounts indicated by IDL in IPS;
•   Key dates in PRISM (e.g., date of birth, date of hire) were not always in agreement with
    the supporting documentation in IPS;
•   The lump sum payment to participants, who received monthly and lump sum payments,
    were not always supported in IPS;
•   Some large lump sum payments were not supported in IPS to substantiate calculations
    and reasons for such payments; and
•   Some participants’ files were missing in IPS.

        These instances occurred due to data entry errors, lack of follow-up with participants
or their relatives, delays in issuing adjusted IDLs to participants, and failure to image
supporting documentation. In order to value correctly its liabilities, PBGC needs to maintain
adequate and accurate participant information. If the information in the PRISM database is
not complete and accurate, there is a possibility that the PVFB liability and participant
benefit calculations could be misstated.

                                     Recommendation

We recommend the following corrective action:

       Enforce policies and procedures that require participants’ records in PRISM contain
       information that is adequately supported in IPS. (IOD-172)

3.1.2 Participant data were not always input into
      PRISM timely.

        During our testing at one of the FBAs, we noted instances where beneficiary
information for several participants who had made a joint and survivorship election was not
input in PRISM timely thus jeopardizing the accuracy of data in the participants’ records. In
accordance with the policies and procedures, as specified in the IOD Manuals, accurate
participants’ data is an important element of PBGC’s financial statements, as PRISM provides
data used to value the PVFB. Beneficiary information was not input into PRISM timely due
                                             13
to a miscommunication between the FBAs and the PRISM team at the headquarters. If
beneficiary information is not entered timely into participants’ records, the PVFB liability for
these participants could be misstated.

                                      Recommendation

We recommend the following corrective action:

       Enforce existing policies and procedures related to the information that should be
       captured by FBAs in the participants’ records in PRISM. (IOD-173)

       Maintain an adequate audit trail of decisions affecting the integrity of participants’
       data. (IOD-174)

3.1.3 Erroneous duplicate participant records
      were found in PRISM.

        During our testing of the PRISM database, we noted instances of erroneous duplicate
participant records. Duplicate participant records were created in PRISM at the time of
conversion from PLUS. PBGC invested significant efforts into resolving the problem;
however, erroneous duplicate records still existed in PRISM at year-end. This situation
caused a year-end adjustment to the PVFB liability. Additionally, we noted that some of the
duplicate records had payment ledgers established under both records. It is important for
PBGC to ensure that erroneous duplicate participant records are not maintained in PRISM.
This control should eliminate the potential risk of invalid payments to participants and the
related misstatement of the PVFB liability on PBGC’s financial statements.

                                      Recommendation

We recommend the following corrective action:

       Delete invalid duplicate participant records in PRISM and implement necessary controls
       to prevent the creation of duplicate records in future processing. (IOD-175)

3.1.4 Data processing errors occurred in PRISM.

        During our testing we noted instances when data processing errors caused
substantial delays in input and duplicate input of financial information such as benefit
payment credits. Specifically, we identified several instances when returned checks,
recoupments of overpayments to deceased participants, and payments to participants issued
via special checks were properly credited to the participants’ records in PLUS at SSB but were
not reflected in PRISM. We also noted instances when the same checks were credited twice in
the participants’ records in PRISM.



                                               14
       In addition, we identified instances when data processing errors in PRISM resulted in
erroneous benefit payments to participants via special checks. We identified a special check
transaction for an unusually large amount that was processed in error and paid in the
December 1997 check run. At that time, the system allowed creation of multiple payment
records via special checks for the same participant. When PBGC identified the processing
problem, a unique payment ID was added to enhance the control over special check
processing. However, to prevent reoccurrence, an improvement is needed in related controls
such as reconciliation to minimize the risk of this error reoccurring.

                                    Recommendation

We recommend the following corrective actions:

       Apply transactions to participants’ records in PRISM properly and timely. (IOD-176)

       Properly authorize special check payments in accordance with authorization thresholds
       established by PBGC. (IOD-177)

3.2    Policies and Procedures

        Although PBGC has begun updating the existing policies and procedures to address
PRISM-related changes in information processing, we identified instances where important
control procedures were not performed adequately or were not documented in sufficient
detail.

3.2.1 Reconciliations between projected benefit
      payments and actual disbursements were
      not performed timely or sufficiently
      documented.

        Reconciliations between projected benefit payments as reported by the PRISM
Balancer module and actual disbursements made by SSB represent an important internal
control over the benefit payment process. Balancer module is designed to compare the
projected benefit payment amounts according to PRISM database with the actual payment
ledgers generated by SSB and permits the system administrator to resolve discrepancies and
document their resolution in the database. Balancer, which was not operational for several
months after the system implementation in October 1997, started producing reports
necessary to perform such reconciliations late in FY 1998. However, the reconciliations were
not documented, the discrepancies between PRISM and SSB records were not resolved
timely, and did not contain evidence of the supervisory review and approval. This condition
was caused by lack of formal reconciliation procedures, including clearly defined
accountability requirements.




                                             15
       Without a proper reconciliation between what PBGC has authorized for payment and
what SSB disbursed to participants, controls are compromised. Erroneous payments issued
by SSB may not be detected by PBGC and unauthorized transactions could be erroneously
paid on behalf of PBGC. Additionally, if reconciling items are not resolved timely, errors may
occur and remain undetected in both databases.

                                     Recommendation

We recommend the following corrective action:

       Develop and implement formal reconciliation procedures that require the reconciling
       items between PRISM and PLUS records be resolved timely and their resolution be
       sufficiently documented. (IOD-178)

       Require formal managerial review and approval of reconciliations between PLUS and
       PRISM. (IOD-179)

3.2.2 Deathmatch control was not operational.

        A significant data integrity control known as deathmatch was not operational in FY
1998. The control enables PBGC to identify deceased participants and update PRISM
records. In the past, deathmatch was performed regularly by SSB. PBGC took over this
function in FY 1998, but, as of September 30, 1998, this procedure was not performed.
PRISM has a Deathmatch module that is designed to compare the PRISM database against
the Social Security Administration (SSA) deceased participant records on a quarterly basis.
In FY 1998, this match was performed on a test basis. However, no verification letters were
sent to the participants on the match list. If the deathmatch is not performed properly with
appropriate follow-up, PBGC will be facing a risk that benefit payments may be made to
deceased participants.

                                     Recommendation

We recommend the following corrective action:

       Implement the deathmatch controls. (IOD-180)

3.2.3 Reconciliations of participants in assumed
      plans were not formally documented or
      were not performed.

       In November 1997, PBGC assumed from SSB responsibility for converting plan records
from the prior paying agents. In FY 1998, IOD conducted conversion of plan data manually
because the PRISM Data Hub module was not operational. The Data Hub module is
designed to load data for plans assumed by PBGC into PRISM (Genesis) database


                                              16
electronically. During FY 1998, we identified that no formal reconciliation was performed
between prior paying agent payment records and manual loads in PRISM. IOD performed
informal verification to ensure that all participants in pay status have been loaded in
PRISM. However, its results were not documented and there was no evidence of
management’s review and approval. No reconciliations of the deferred vested participants’
data in assumed plans were performed.

       At the time of transition such as transferring the function from one entity to another,
a proper audit trail is essential to ensure that the processes can be reperformed and errors
can be corrected timely. Without proper reconciliation and management’s review and
approval of such reconciliation, participant information could be missing or entered
incorrectly.

                                     Recommendation

We recommend the following corrective action:

      Establish a formal reconciliation process for the plans assumed from the prior paying
      agents whereby reconciliations are reviewed and approved by an appropriate level of
      management. (IOD-181)

3.3    Segregation of Duties

        Segregation of duties, as a control, establishes an environment in which no single
individual is given the ability to initiate, create, modify, and delete data. If management
establishes such an environment, adequate monitoring capabilities should be implemented
to allow for an independent review of an individual’s actions.

3.3.1 PBGC assigned the PRISM development team
      duties that did not adequately promote a
      controlled development environment.

       During fiscal year 1998, the PRISM development team performed functions that
would not be considered compliant with a properly controlled environment, as defined by
business best practice and OMB A-130. In addition to the on-going development of the
application modules, the team members were assigned the responsibility for the database
conversion and implementation of the system into production, as well as error correction,
maintenance, support, and database administration of both the development and
production environments. Although PBGC is in the process of reassigning responsibilities for
the maintenance and support of PRISM, this issue of controlling the two separate
environments, development and production, was not addressed as of September 30, 1998.

      During fiscal year 1998, there were no monitoring controls in place that would enable
PBGC to detect potential unauthorized data modifications caused by an inadequate


                                              17
segregation of duties. While PRISM contains an authorization log and an audit trail for each
transaction, there were no formal reports produced for independent review, nor were there
specific policies and procedures requiring supervisory review of such reports. Monitoring
controls and an adequate segregation of duties between development and production
functionality would strengthen the system development and change control process, thereby
reducing the risk of unauthorized modifications to data or system resources.

                                     Recommendation

We recommend the following corrective action:

       PBGC should include in its development of a formal systems development life cycle
       methodology policies and procedures that address adequate controls for the
       segregation of functions performed in the development and production environments.
       (IRMD-110)

       PBGC should include in its development of a formal systems development life cycle
       methodology policies and procedures that implement and enforce adequate monitoring
       controls for significant activities performed by individuals and/or systems.
       (IRMD-111)

3.3.2 PBGC assigned operational and security
      responsibilities to one individual without
      implementing adequate controls to monitor
      activity.

     During fiscal year 1998, one individual was assigned excessive functionality for both
PRISM application security and operational responsibilities. These responsibilities included:

•   Granting access to individuals for entering and approving financial data;
•   Re-routing financial transactions to alternate approval queues;
•   Approving financial transactions not previously approved timely by authorized
    individuals; and
•   Performing certain financial reconciliations.

        Financial reconciliations performed by this individual included (a) reconciliations
between projected benefit payments as reported by PRISM and actual disbursements made by
SSB in PLUS and (b) reconciliations between benefit funding requests approved by PBGC and
benefit payments disbursed by SSB.

        During our testing, we noted that in FY 1998 there was a lack of monitoring controls
in place that would enable PBGC to detect potential unauthorized data modifications due to
this individual having the authority to initiate, create, modify, and delete data. For example,
we found that both types of financial reconciliations did not contain evidence of


                                              18
the supervisory review and approval. The lack of adequate controls to monitor the overlap
of responsibility assigned to one individual increases the risk that unauthorized activity may
occur and not be detected in a timely manner.

                                     Recommendation

We recommend the following corrective action:

       PBGC should implement policies and procedures that would control the assignment of
       excessive responsibilities, including the development of adequate monitoring of
       activities performed by individuals and/or systems. (IOD-182)

Status of Prior Year Findings and Recommendations

       While we recognize that the Corporation has put forth considerable efforts to
implement policies and procedures to mitigate or otherwise resolve the findings reported in
our FY 1993 to FY 1996 audit reports (OIG Audit Report Numbers 94-1/23069-2, 94-
7/23079-2, 95-7/23083-2, 96-9/23093-3, and 97-4/23110-2), as of September 30, 1998, a
number of findings and related recommendations had yet to be completed and implemented.

        The following schedule identifies the status of the 28 recommendations that were
outstanding as of September 30, 1997. Follow-up of prior year findings and
recommendations was performed, in part, to determine the nature, timing, and extent of the
current year's audit procedures. The status was determined through review of management's
responses to the OIG's semi-annual report of audit recommendations, additional audit
testing performed, and discussions held with the appropriate management personnel. The
status of these prior-year findings is as of September 30, 1998, and may not necessarily
represent the status as of the date of the issuance of this report. The “status” category of
each prior-year finding corresponds to the categories as used by the OIG in the Semiannual
Report of Follow-up of Audit Recommendations, defined as follows:

•   Completed -- The OIG concurs with PBGC management that the recommendation had
    been implemented. Therefore, this recommendation will no longer be tracked by the OIG
    and reported in future Semiannual Reports on Follow-up Audit Recommendations.

•   Initiated, Not Completed -- Steps have been taken by PBGC management to implement
    the recommendation. However, further actions are still needed by PBGC to implement
    the recommendation. Therefore, this status of the recommendation will continue to be
    tracked by the OIG.

•   Not Initiated -- No steps have been taken by PBGC management to implement the
    recommendation. Therefore, this status of the recommendation will continue to be
    tracked by the OIG.



                                             19
  OIG
Control    Status of Prior Year Findings and Recommendations As of              Status as of
Number                            September 30, 1998                        September 30, 1998



                                       Fiscal Year 1996

FOD-216    Controls surrounding PAS require improvement.                         Completed
FOD-217                                                                    Initiated, Not Completed
FOD-219                                                                          Completed


FOD-259    PBGC did not always maintain a proper audit trail to support    Initiated, Not Completed
FOD-261    the component line items presented in the Corporation’s               Completed
IOD-141    financial statements or the underlying controls related to      Initiated, Not Completed
           financial reporting.


FOD-263    PBGC personnel did not always comply with PBGC policies and     Initiated, Not Completed
FOD-264    procedures.                                                     Initiated, Not Completed
FOD-265                                                                          Completed
FOD-266                                                                          Completed
IOD-142                                                                          Completed


IOD-143    Participant data maintained on PLUS did not always agree to     Superseded by IOD-151
           the supporting documentation maintained by PBGC.


IOD-144    Develop procedures to implement PBGC’s policy to conduct an     Initiated, Non Completed
           expense assumption study on a predetermined schedule or
           when certain conditions (economic or political) exist to
           determine the reasonableness and validity of this assumption.


 OED-9     Develop and document a formal methodology for calculating       Initiated, Non Completed
           the general unidentified single-employer probable contingency
           reserve based on an analysis of related industry trends and
           historical information.


FOD-267    Develop and implement procedures to validate single-employer          Completed
           data reported on the Form 1.


                                     Fiscal Year 1995

FOD-193b   Develop and follow a formal systems development life cycle      Superseded by IRMD-92
           methodology on all subsequent system acquisition or
           development projects.




                                              20
  OIG
Control   Status of Prior Year Findings and Recommendations As of                Status as of
Number                          September 30, 1998                           September 30, 1998



FOD-195   Explanations for changes to the reasonably possible                     Completed
          contingency inventory list of plans were not always documented
          or supported by a Contingency Classification Form A.


IOD-137   Reconciliations of the number of benefit checks processed by      Initiated, Not Completed
          SSB and its contractor are not always performed or
          adequately supported.


IRMD-75   PBGC has not formally documented its policies and procedures      Initiated, Not Completed
IRMD-76   related to computer program changes.                              Initiated, Not Completed


IRMD-80   Access to the mainframe security system is not adequately               Completed
IRMD-81   limited.                                                          Initiated, Not Completed


IRMD-83   Several generic user IDs were found in the system.                      Completed

IRMD-84   The Corporation’s disaster recovery plan does not include local   Initiated, Not Completed
          area networks.


                                   Fiscal Year 1994

IOD-127   General controls surrounding the Integrated Present Value of      Initiated, Not Completed
IOD-129   Future Benefits (IPVFB) Local Area Network (LAN) are              Initiated, Not Completed
          inadequate.




                                   Fiscal Year 1992

IOD-67    PBGC did not always maintain adequate documentation to            Superseded by IOD-151
          support the participant data residing on PLUS.


IOD-66    Controls related to the input on non-financial participant data   Superseded by IOD-152
          to PLUS are inadequate to ensure the veracity of the data
          maintained therein.




                                           21
